LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 30, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-869: DAVID E. HENRY V. CASTLE MEDICAL CENTER
Dear Sir or Madam:

I hereby certify that at the request of counsel for the Respondent, on March 30,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Petitioner:
PETITIONER:
Dennis William King
King Pang & Van Etten
1003 Bishop Street
Suite 1550
Honolulu, HI 96813-0000
808-533-1753
dwk@dkpvlaw.com
This service was effected by depositing one copy of a Respondent's Brief in
Opposition to Petition for Writ of Certiorari in an official “first class mail” receptacle
of the United States Post Office as well as by transmitting digital copies via electronic
mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 30th day of March 2021.

